HHS/OIG-Audit--"Review of St. Francis Behavioral Health Center's Partial Hospitalization, (A-04-97-02141)"
Department of Health
and Human Services
Office of Inspector General -- AUDIT
"Review of St. Francis Behavioral Health Center's Partial Hospitalization Program," (A-04-97-02141)
December 17, 1999
Complete
Text of Report is available in PDF format (471 kb). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
This final report provides the results of our review of St. Francis Behavioral Health Center's Partial Hospitalization
Program. Medicare covers partial hospitalization services to eligible beneficiaries for services that are reasonable and
necessary for the diagnosis and treatment of an individual's mental condition and reasonably expected to improve or maintain
the individual's functional level to prevent relapse or hospitalization. The objective of our review was to determine whether
the partial hospitalization services claimed by the provider for 20 beneficiaries in the 12-month period ended December
31, 1996 met the Medicare eligibility and reimbursement requirements.
Our review showed that for the 12-month period ended December 31, 1996, St. Francis Behavioral Health Center (St. Francis)
was paid $573,506 for services to 20 beneficiaries that did not meet the Medicare eligibility and reimbursement criteria.
We reviewed a judgmental sample of 20 beneficiaries who received partial hospitalization (PHP) services during the 12-month
period ended December 31, 1996 at St. Francis. The review showed that all of the services claimed for the 20 beneficiaries
did not meet the Medicare eligibility and reimbursement criteria.
The 20 beneficiaries did not meet the eligibility criteria for admission to the PHP, received services from unlicensed
staff, and received services that were not reasonable and necessary for the patients' condition.
We believe that the unallowable claims were submitted because the provider did not adhere to Medicare guidelines. Also,
the Fiscal Intermediary's (FI) policies to identify improperly billed services may be inadequate. Based on the results
of our review, we recommend that the Health Care Financing Administration (HCFA) instruct the FI to:
initiate recovery action against the provider for the $573,506 overpayment, and
monitor the PHP providers to ensure that proper reimbursement procedures are followed.
The HCFA generally concurred with these recommendations. The HCFA's response, in it's entirety, is included in Appendix
A of this report.